Paul M. Seby
Tel 303.572.6584
Fax 720.904.7684
sebyp@gtlaw.com

June 28, 2021
By Electronic Filing and Electronic Mail
The Honorable Scott S. Harris
Clerk of the Court
United States Supreme Court
One First Street, NE
Washington, DC 20543
Re:

State of North Dakota v. Environmental Protection Agency, et al., No. 20-1780 (U.S.)

Dear Mr. Harris:
As counsel of record for Petitioner in State of North Dakota v. Environmental Protection
Agency, et al., No. 20-1780 (U.S.), I am writing to grant blanket consent to the filing of a brief
amicus curiae with respect to certiorari by any person or entity, provided that it is filed within the
time allowed by the rules of this Court. This consent applies without regard to the position taken
or the party being supported by the brief.
Sincerely,
/s/ Paul M. Seby
Paul M. Seby
cc:

Jacob M. Roth
Counsel for Petitioner North American Coal Corporation (by electronic mail)
Lindsay S. See
Counsel for State Petitioners State of West Virginia, et al. (by electronic mail)
Andrew M. Grossman
Counsel for Petitioner Westmoreland Mining Holdings LLC (by electronic mail)
Elizabeth B. Prelogar
Benjamin Carlisle
Counsel for Respondents (by electronic mail)

Greenberg Traurig, LLP | Attorneys at Law
1144 15th Street | Suite 3300 | Denver, Colorado 80202 | T +1 303.572.6500 | F +1 303.572.6540

www.gtlaw.com

